<html>
<title> - S. Hrg. 115-609 BUSINESS MEETINGS</title>
<body><pre>[Senate Hearing 115-609]
[From the U.S. Government Publishing Office]



 

                                                        S. Hrg. 115-609

                           BUSINESS MEETINGS

=======================================================================

                                MEETINGS

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                       FIRST AND SECOND SESSIONS

                               __________

           JUNE 15, 2017; DECEMBER 13, 2017; FEBRUARY 7, 2018

                               __________

  Printed for the use of the Committee on Environment and Public Works






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]











        Available via the World Wide Web: http://www.govinfo.gov 
        
                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
36-116 PDF                WASHINGTON : 2019                 
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
JOHN BOOZMAN, Arkansas               BENJAMIN L. CARDIN, Maryland
ROGER WICKER, Mississippi            BERNARD SANDERS, Vermont
DEB FISCHER, Nebraska                SHELDON WHITEHOUSE, Rhode Island
JERRY MORAN, Kansas                  JEFF MERKLEY, Oregon
MIKE ROUNDS, South Dakota            KIRSTEN GILLIBRAND, New York
JONI ERNST, Iowa                     CORY A. BOOKER, New Jersey
DAN SULLIVAN, Alaska                 EDWARD J. MARKEY, Massachusetts
RICHARD SHELBY, Alabama              TAMMY DUCKWORTH, Illinois
                                     KAMALA HARRIS, California

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
JOHN BOOZMAN, Arkansas               BENJAMIN L. CARDIN, Maryland
ROGER WICKER, Mississippi            BERNARD SANDERS, Vermont
DEB FISCHER, Nebraska                SHELDON WHITEHOUSE, Rhode Island
JERRY MORAN, Kansas                  JEFF MERKLEY, Oregon
MIKE ROUNDS, South Dakota            KIRSTEN GILLIBRAND, New York
JONI ERNST, Iowa                     CORY A. BOOKER, New Jersey
DAN SULLIVAN, Alaska                 EDWARD J. MARKEY, Massachusetts
RICHARD SHELBY, Alabama              TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director 
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JUNE 15, 2017
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2

                          ADDITIONAL MATERIALS

Presidential Nomination 561. Nomination of Kristine L. Svinicki, 
  of Virginia, to be a Member of the Nuclear Regulatory 
  Commission for the term of five years expiring June 30, 2022. 
  (Reappointment) From President Donald J. Trump, received June 
  6, 2017........................................................     5
Nomination Reference and Report, Presidential Nomination 561, 
  referring to the Committee on Environment and Public Works the 
  nomination of Kristine L. Svinicki, of Virginia, to be a Member 
  of the Nuclear Regulatory Commission for the term of five years 
  expiring June 30, 2022. (Reappointment) Signed June 15, 2017...     6

                           DECEMBER 13, 2017
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     7
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     7

                          ADDITIONAL MATERIALS

Presidential Nomination 1079. Nomination of R. D. James, of 
  Missouri, to be an Assistant Secretary of the Army, vice Jo-
  Ellen Darcy, from President Donald J. Trump. Dated October 5, 
  2017...........................................................     9
Nomination Reference and Report, Presidential Nomination 1079, 
  referring to the Committee on Environment and Public Works the 
  nomination of R. D. James, of Missouri, to be an Assistant 
  Secretary of the Army, vice Jo-Ellen Darcy. Signed December 13, 
  2017...........................................................    10

                            FEBRUARY 7, 2018
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......    11
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..    12

                          ADDITIONAL MATERIALS

Presidential Nomination 1426. Nomination of Andrew Wheeler, of 
  Virginia, to be Deputy Administrator of the Environmental 
  Protection Agency, vice Robert Perciasepe, resigned. From 
  President Donald J. Trump, received January 8, 2018............    20
Nomination Reference and Report, Presidential Nomination 1426, 
  referring to the Committee on Environment and Public Works the 
  nomination of Andrew Wheeler, of Virginia, to be Deputy 
  Administrator of the Environmental Protection Agency, vice 
  Robert Perciasepe, resigned. Signed February 7, 2018...........    21

 
                            BUSINESS MEETING

                              ----------                              


                        THURSDAY, JUNE 15, 2017

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m. in 
room 406, Dirksen Senate Building, Hon. John Barrasso (Chairman 
of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, 
Boozman, Wicker, Fischer, Rounds, Ernst, Shelby, Moran, Cardin, 
and Booker.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this business 
meeting to order.
    I thank everyone for coming today. We are here to consider 
the nomination of Kristine Svinicki to be reappointed as a 
member of the Nuclear Regulatory Commission. Senator Carper and 
I will give our opening statements; after that other members 
may make remarks until we have a reporting quorum. We are very 
close to that right now. Then we are going to proceed to that 
one item on the agenda.
    As soon as we get the reporting quorum, we will have the 
vote. Then I will wait and let every other member make a 
statement, if they would like.
    I applaud the President's nomination of Ms. Svinicki. She 
has served as a member of the NRC for more than 9 years, 
including the last 6 months as Chair. The members of the 
Environment and Public Works Committee know her well. She has 
testified before this Committee 18 times, three times as a 
nominee. In every appearance before us as a member of the 
Nuclear Regulatory Commission, she has proven herself to be a 
well qualified, experienced, and dedicated public servant.
    Twice before, members of this Committee and the full Senate 
have agreed. When Ms. Svinicki was first nominated to be a 
member of the Nuclear Regulatory Commission, this Committee 
reported her by voice vote in 2007. The Senate confirmed her by 
voice vote as well. She was renominated for a second term, 
reported by voice vote in 2012, confirmed as well by the 
Senate.
    President Trump has designated Ms. Svinicki as Chair of the 
Nuclear Regulatory Commission in January 2017. Before joining 
the NRC she built a distinguished career in public service; 
various staff positions in the Senate, as a nuclear engineer at 
the Department of Energy, and as an energy engineer for the 
Wisconsin Public Service Commission.
    I am going to ask that the remainder of my statement go 
into the record, because I do think we have a reporting quorum 
at this time.
    And I will turn to Senator Carper.
    [The referenced information was not received at time of 
print.]

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    I am going to ask unanimous consent that my statement be 
submitted for the record, and just say a couple things if I 
could.
    I just want to say how proud I am to serve on this 
Committee, and how proud I am to serve with our Chairman and 
each one of you. We have a lot of new members of this 
Committee. I think the new members bring a lot to the 
Committee, and we are happy you are with us.
    Former Chairman Inhofe and I had focused a lot of the time 
that we have been in the Senate on all things nuclear, and 
continue to. He provided great leadership of the Subcommittee 
for a number of years, along with George Voinovich. I attempted 
to do that as well. And it is important, it is important work; 
part of our responsibility to this Committee.
    We have had some real turbulence in recent years with 
respect to the NRC. There were times when those folks were 
before us, and I had never seen five more unhappy people in my 
life. We had these very contentious, difficult hearings. I am 
sure Jim Inhofe remembers those. Those days are behind us, and 
we seem to have a Commission that seems to be working well 
together, in a collegial and productive way. So that is good.
    Kristine has been a member of the Commission for a number 
of years. The members obviously know when she worked on the 
floor as a member of our staff, and we have a high regard for 
her. I am pleased that I think we are going to get her 
confirmed out of the Committee. I certainly support doing so.
    There are a couple of other nominees that are before us, 
with her, two other Republicans, so we are considering three--
not today, but three Republicans that are sort of like packaged 
together. And we have two Democrats, one whose term expires 
next year. I have talked to the Chairman about somehow pairing 
these two additional Republicans that have been nominated by 
this President, to pair them with one of the Democrats whose 
term expires next year.
    That would give us a situation that, if we could get them 
all done, I hope we could get them done quickly, that we would 
have three Republicans and two Democrats to continue to serve 
on the Commission. So I hope could move in that direction, but 
today I hope we will report out Kristine Svinicki.
    The other thing I want to say, the Democratic Ranking 
Members are raising in Committee hearings and mark ups this 
week our concern about moving forward as a body with respect to 
health care. I am not going to belabor it, but I do want to say 
this, if I could.
    As some of you know, I start my day in the gym in the 
morning. I know the Colonel over here, and I sometimes run. He 
could run me into the ground; he could have this morning. It 
was brutal out there. I like to run down to the Lincoln 
Memorial. I don't know if you have had a chance to go down 
there lately, but engraved up on the walls around President 
Lincoln's statue are some of his most famous speeches, like the 
Second Inaugural address is there; the Gettysburg address is 
there.
    Sort of coming on the heels of yesterday a new tragedy was 
visited on our colleagues in the House. Thank God for the 
Capitol Police. Everyone I have seen since then has shaken 
their hands and thanked them. I hope you are doing that as 
well. I think we all just got a wake up call that life is dear, 
and not something to take for granted.
    The other thing is, for me at least, is a reminder that we 
need to work together. People want us to work together, not 
just on this nomination today, not just on health care. They 
want us to work together.
    I am going to try to do a better job of doing that. I think 
we all could.
    Thank you.
    [The prepared statement of Senator Carper follows:]

                  Statement of Hon. Thomas R. Carper, 
                U.S. Senator from the State of Delaware

    Thank you, Mr. Chairman. I'm pleased to support the re-
nomination of Chairman Svinicki to continue to lead the Nuclear 
Regulatory Commission.
    Since joining the Environment and Public Works Committee, I 
have worked closely with my colleagues to strengthen the 
``culture of safety'' within the U.S. nuclear energy industry.
    Due, in part, to our collective efforts, and to the efforts 
of NRC leadership and the Commission's dedicated staff, the NRC 
continues to be the world's gold standard for nuclear 
regulatory agencies.
    However, as I've said time and time again, that does not 
mean we can become complacent about nuclear safety and our NRC 
oversight responsibilities. I'm certain every member of this 
Committee shares that perspective.
    Ensuring the NRC continues to have experienced and 
dedicated leadership on the Commission is one of the most 
important things this Committee can do to ensure a high level 
of safety and excellence at our Nation's nuclear facilities.
    I have been consistently impressed with the current 
Commission at the NRC and its members' ability to work well 
with each other. Each commissioner brings a unique set of 
skills to the table, and that certainly includes our Chairman, 
Kristine Svinicki. That diverse skill set has served the 
Commission--and our country--well.
    Mr. Chairman, you and I have talked before about having 
parity with the NRC nominees, which continues to be a priority 
for me, but I support moving Chairman Svinicki through the 
confirmation process at this time out of respect for her long 
time service on the NRC and because of the need to provide 
certainty and predictability with respect to the leadership of 
the NRC going forward.
    If Chairman Svinicki is reconfirmed, she will be 
responsible for leading the NRC in its mission to protect the 
health and safety of the American people by ensuring our 
Nation's fleet of nuclear reactors operates efficiently and 
safely.
    While on the topic of health, I want to express my growing 
concern that there is an effort underway to write a health care 
bill that only involves a handful of Senators, all of the same 
party. The legislation is being drafted behind closed doors, 
and despite not yet having a single hearing to review it, there 
is talk of quickly moving the bill to the floor.
    I know that we all share the desire to make health care 
accessible and affordable for every American. In that spirit, I 
ask my Republican colleagues to join with us Democrats so we 
can work together on a health care bill. Something this 
important should be done on a bipartisan basis.
    After the horrific events of yesterday morning, I think 
we're all a bit more reverent today. I think the idea that 
we're Americans first and members of political parties second 
is fresher on our minds. And while this Committee doesn't have 
jurisdiction over health care, I hope all of us here will 
summon our better angels and step away from our respective 
party corners.
    The public has a right to participate in this process. 
Let's remove the shroud of secrecy, and instead, come together 
to present the American people with a law that preserves the 
parts of the Affordable Care Act that should be preserved and 
fixes those that should be fixed so that we can truly make high 
quality health care more affordable for one and all.

    Senator Barrasso. Thank you very much, Senator Carper. I 
enjoy working with you and look forward to continuing to work 
with you in a bipartisan way. I appreciate your help in 
expediting this nomination today.
    We have agreed--the Ranking Member and I have agreed that 
this will be a voice vote, but members may choose to have the 
vote recorded on the nomination. So we will have that 
opportunity in a few seconds.
    We do have a quorum. I would like to call up nomination 
number 561, Kristine Svinicki of Virginia, to be a member of 
the Nuclear Regulatory Commission for the term of 5 years, 
expiring June 30th, 2022, a reappointment. I move to approve 
and report the nomination favorably to the Senate.
    Is there a second?
    Senator Carper. I second.
    Senator Barrasso. All in favor, please say aye.
    [Chorus of ayes.]
    Senator Barrasso. All opposed, no.
    [No audible response.]
    Senator Barrasso. In the opinion of the Chair, the ayes 
have it. We have approved the nomination of Ms. Svinicki to be 
a member of the Nuclear Regulatory Commission, which will be 
reported to the full Senate for approval.
    The voting part of our business meeting is finished, but I 
am happy to recognize any member who wishes to make a statement 
on the nomination that we have just approved.
    Senator Inhofe.
    Senator Inhofe. You are going to see an exodus here of the 
Senate Armed Services Committee, which I am going to. But I 
want to echo your words, both of you, in praise for Ms. 
Svinicki. She has been excellent. I made that expression at our 
last meeting, and I am very glad to have her back.
    Senator Barrasso. Would anyone else like to make a 
statement?
    Hearing none, the business meeting is concluded and 
adjourned.
    [Whereupon, at 10:10 a.m., the business meeting was 
concluded.]
    [Additional material submitted for the record follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 



                            BUSINESS MEETING

                              ----------                              


                      WEDNESDAY, DECEMBER 13, 2017

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:54 a.m. in room 
406, Dirksen Senate Building, Hon. John Barrasso (Chairman of 
the Committee) presiding.
    Present: Senators Barrasso, Inhofe, Capito, Boozman, 
Fischer, Rounds, Ernst, Sullivan, Carper, Merkley, Gillibrand, 
Booker, and Harris.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning.
    I call this business meeting to order.
    Some members have to leave in the next couple of minutes to 
get to votes in the Commerce Committee, so I am going to call 
the business meeting to order and thank all of you for coming 
on time.
    We are here to consider the nomination of R. D. James of 
Missouri to be the Assistant Secretary of the Army for Civil 
Works. After we vote, we will then conclude our business 
meeting and turn to our hearing focused on oversight of the 
Nuclear Regulatory Commission.
    As the Committee heard last week, R. D. James is well 
qualified to serve as Assistant Secretary of the Army for Civil 
Works. He will bring a wealth of experience and expertise to 
this critically important role in addressing our Nation's 
infrastructure needs.
    I applaud the President's nomination of such an 
accomplished American and dedicated public servant. I urge all 
my colleagues to vote yes on Mr. James' nomination.
    At this time, I would like now to turn to the Ranking 
Member for his statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. I would just say that R. D. James will be 
confirmed over my dead body.
    [Laughter.]
    Senator Carper. I said to him after the hearing, ``R. D., 
you are going to be traveling a lot,'' because I think he has 
met with all of us, and he said to each of us, ``I'll come to 
your State.'' I said, just make sure you get credit for the 
frequent flyer miles you are going to be piling up because 
there are going to be a lot of them.
    I think we are lucky with somebody as experienced as he is. 
Frankly, he is just a delight. I said to some of you, he 
reminded me of Sonny Perdue, a young Sonny Perdue. I am happy 
he is willing to do this; happy that his wife--Jenny, I think 
is her name--is willing to share him; and send his nomination 
to the full Senate.
    Thank you.
    I have a greater, a fuller statement that indicates I do 
not plan to block his nomination over my dead body.
    [The referenced information was not received at time of 
print.]
    Senator Barrasso. That will be included in the record.
    Senator Carper. Thank you.
    Senator Barrasso. Now that enough members have arrived, I 
would like to move to a vote on the one item on today's agenda.
    The Ranking Member and I have agreed to vote on the nominee 
by voice vote, but any member may choose to have his or her 
votes recorded after the voice vote.
    I would like to call up Presidential Nomination 1079, R. D. 
James of Missouri to be the Assistant Secretary of the Army for 
Civil Works.
    I move to approve and to report the nomination favorably to 
the Senate.
    Is there a second?
    Senator Carper. Second.
    Senator Inhofe. Second.
    Senator Barrasso. All those in favor, say aye.
    [Chorus of ayes.]
    Senator Barrasso. Opposed, nay.
    [No audible response.]
    Senator Barrasso. In the opinion of the Chair, the ayes 
have it.
    We have approved the nomination of Mr. James to be 
Assistant Secretary of the Army for Civil Works which will be 
reported to the full Senate for approval.
    The voting part of the business meeting is concluded. Any 
member who wishes to submit a statement for the record 
regarding the nomination may do so.
    With that, our business meeting is concluded.
    [Whereupon, at 9:58 a.m., the Committee proceeded to other 
business.]
    [Additional material submitted for the record follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    



                            BUSINESS MEETING

                              ----------                              


                      WEDNESDAY, FEBRUARY 7, 2018

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:40 a.m. in room 
406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, 
Boozman, Wicker, Fischer, Moran, Rounds, Ernst, Sullivan, 
Shelby, Merkley, Gillibrand, Booker, and Duckworth.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. Thank you for coming.
    We are here to consider the nomination of Andrew Wheeler to 
be the Deputy Administrator of the Environmental Protection 
Agency, the EPA. This Committee voted to report Mr. Wheeler to 
the full Senate only 2 months ago. His nomination was returned 
to President Trump on January 3rd, and on January 8th President 
Trump renominated Mr. Wheeler.
    So we consider his renomination today. We will follow the 
same process that we implemented last November 29th, when we 
voted to report his original nomination. To that end, we will 
be voting at roughly 9:50 to accommodate members' schedules and 
allow us to begin our hearing scheduled at 10 a.m.
    So before we vote at 9:50, we will discuss Mr. Wheeler's 
nomination. The majority will have 10 minutes, beginning with 
my opening statement. The minority will have 10 minutes to 
speak, beginning with the Ranking Member's opening statement.
    I will make a few brief remarks then reserve the balance of 
the majority's time to make additional comments. I know Senator 
Inhofe would like to make a comment as well. The Ranking Member 
may then recognize those members of the minority wishing to 
speak during the minority's time.
    After each side has used its time we will move to vote as 
soon as a quorum is present. Once we conclude our business 
meeting, we will proceed to our hearing, which is scheduled to 
begin at 10.
    We can start the clock on our time.
    I would just say that we are here to vote on the nomination 
of Andrew Wheeler to be Deputy Administrator of EPA. He has 
worked in the environmental field for over 25 years. He spent 
12 of those years serving this Committee's Clean Air 
Subcommittee as the staff director, as Republican staff 
director and general counsel. He has proven himself to be a 
well qualified, experienced, and dedicated public servant.
    We all know that Mr. Wheeler will make an invaluable 
contribution to the protection of America's public health and 
safety as Deputy Administrator of the EPA. I urge my colleagues 
to vote yes on Mr. Wheeler's nomination.
    I reserve the majority of my time.
    Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    Last week EPA Administrator Scott Pruitt appeared before 
our Committee. I told him that it would be difficult--at the 
conclusion of the Committee hearing, I mentioned to him that it 
would be difficult to move forward with additional EPA nominees 
until the nomination of Kathleen Hartnett White was withdrawn. 
I am pleased that the Administration heeded our words and 
responded to our concerns and those of other Senators. I hope 
that the White House will name a qualified nominee to run the 
Council on Environmental Quality.
    Former Governor, worked with 49 other Governors across this 
country, I know that every Governor in this country has a 
secretary, we have in Delaware the Department of Natural 
Resources and Environmental Control, every State has a similar 
kind of department within their State government structure. 
There are over 30 Republican Governors in the country right 
now. They each have a secretary whose expertise and whose 
responsibilities are in line with those of this Committee. They 
provide a good pool from which this Administration can draw 
excellent talent. It is imperative that they use that pool to 
do so.
    Today this Committee will vote for the second time on the 
nomination of Andrew Wheeler to be Deputy Administrator of EPA. 
As a staff member on this Committee for Senator Voinovich and 
Senator Inhofe, Mr. Wheeler was not someone with whom we agreed 
on each and every policy. However, Mr. Wheeler did prove to be 
someone with whom we could work on policies on which we did 
agree, like the Diesel Emission Reduction Act, which George 
Voinovich and I initially introduced and which Jim Inhofe has 
been a champion of for many years since George left us.
    I would also note that Mr. Wheeler's responses during and 
after last year's hearing on his nomination were for the most 
part encouraging. But I would like to take a moment to discuss 
what I believe may be some concerns associated with both Mr. 
Wheeler and the EPA, and to note that I very much hope these 
concerns could be addressed in a manner that would allow the 
full Senate to consider his nomination soon.
    Recently the public got a chance to read the so called 
Murray Action Plan, a list of policy proposals submitted to 
President Trump and other Trump administration officials by Mr. 
Wheeler's former client, Bob Murray. The Murray Action Plan 
includes any number of measures that EPA has already started to 
implement, like repeals of the Clean Power Plan and the Clean 
Water Rule and the dissemination of EPA's career work force. 
Decimation, the decimation of EPA's career work force.
    The document also calls for some measures that EPA has not 
yet acted upon. For example, Mr. Murray has called for repeal 
of the Mercury and Air Toxics Standard, rules that limit 
dangerous pollutions from power plants, even though industry is 
already complying with those rules. Mr. Murray also calls for a 
re-evaluation of climate change science and the repeal of EPA's 
so called Endangerment Finding, the conclusions that both the 
Bush and Obama administrations reached that found global 
warming pollution from cars and SUVs was dangerous.
    I personally met with Mr. Wheeler twice since his 
nomination. I have asked him directly whether he was involved 
in writing Mr. Murray's proposals. He assured me that he was 
not. He told me that one of Murray Energy's priority issues 
that he has worked on, however, was securing health and other 
benefits for retired miners.
    He also assured me that he views EPA's legal authority to 
regulate greenhouse gas emissions, which is based on the 
Endangerment Finding as settled law. I have no reason to doubt 
Mr. Wheeler's assurances that at least on the question of the 
Endangerment Finding he holds a view that is different a 
distinct from Mr. Murray's.
    However, I am sure that I speak not just for myself when I 
say that I do not feel similarly assured by Mr. Pruitt. The 
Trump White House has said that it wants EPA and the 
Transportation Department to negotiate what I like to call a 
win-win on CAFE and tailpipe standards with California. That 
means that the Trump administration's policies must be to leave 
the Endangerment Finding alone, because the Endangerment 
Finding is what gives EPA and California the authority to write 
the tailpipe greenhouse gas rules in the first place.
    But Administrator Pruitt has repeatedly refused to say this 
clearly. For example, in July he told Reuters that there might 
be a legal basis to overturn EPA's Endangerment Finding 
decision. When I asked him just last week to commit not to 
overturn it for as long as he is Administrator, he refused to 
make that commitment.
    Similarly, when Senator Merkley was here to my left, 
Senator Merkley asked Administrator Pruitt to confirm the 
public reports to confirm the public reports that the White 
House officials have told Mr. Pruitt that he does not have 
their permission to move forward with his planned Red Team-Blue 
Team challenge to climate science. Mr. Pruitt called these 
reports untrue.
    And just yesterday the Administrator questioned whether 
warming temperatures were a bad thing in the first place. 
Administrator Pruitt did agree, however, in response to Senator 
Markey, that his preference was to work to find consensus with 
California on how to regulate greenhouse gas tailpipe standards 
for cars and SUVs. But reports indicate that serious technical 
negotiations with California have yet to begin. And any move to 
repeal or revise EPA's Endangerment Finding would completely 
and immediately derail this entire effort.
    Last week, Administrator Pruitt was given the opportunity 
to say that he does not plan to do each and every thing that 
Mr. Wheeler's former client, Bob Murray, asked the Trump 
administration to do. He was offered that opportunity. 
Unfortunately, he did not seize that opportunity.
    I believe that members of this Committee and members of the 
public deserve more clarity about whether the Trump 
administration will be guided by science and the law or by Mr. 
Murray's demands. That lack of clarity is a large part of why I 
cannot yet support quickly moving forward with Mr. Wheeler's 
nomination. I believe we all need to understand particularly, 
for the items on the Murray Action Plan list--like the 
Endangerment Finding, climate science, and the Mercury and Air 
Toxics Rule--whether this Administration will govern in a 
manner that will bring regulatory certainty to industry or 
whether it will accede to the wishes of Mr. Wheeler's former 
client and throw our industry into disarray with litigation.
    In closing, let me just say this. I look forward to a 
continued dialogue with our colleagues in the Senate, with the 
Administration over our concerns in hope that we can address 
them as we work toward a possible time agreement for the 
consideration of Mr. Wheeler's nomination.
    With that, we will reserve our time.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much, Senator Carper.
    Senator Merkley, anything that you would like to add to 
this nomination?
    Senator Merkley. Thank you, Mr. Chairman.
    I am very concerned about the direction of the EPA in this 
Administration. We see the censorship of scientists; we see the 
denial of science; we see Web pages that help our communities 
adapt and prepare for climate change disappearing from the EPA 
Web site. We see Administrator Pruitt travel to foreign 
countries, promote pollution rather than promote environmental 
protection. We see secrecy in meetings and calls and travel 
schedules, a complete lack of transparency in serving the 
American people. This is not an agency that is trying its best 
to protect the health of our citizens, protect our drinking 
water, our air, and our public lands.
    When Administrator Pruitt was here last week I asked how 
many of his EPA's 15 major air actions were supported by the 
American Lung Association or by the American Academy of 
Pediatrics. And he didn't know, maybe because he hasn't met 
with them, hasn't talked to public health advocates, despite 
being in charge of environmental protection.
    I am afraid that the nominee before us will not help EPA 
right its course. He is another lobbyist for another industry. 
An Administration that promised to drain the swamp, but instead 
we see a revolving door of lobbyists and D.C. bureaucrats 
taking appointments in the Administration to new levels on 
issues directly related to their former clients.
    Plus, they have received waivers to allow them to proceed 
to avoid the ethics rules that bar former lobbyists from 
participating in any particular matter on which they lobbied in 
the past 2 years. This is the swamp; this does not serve the 
American people. And we should reject this nomination.
    Senator Barrasso. Senator Gillibrand, anything you would 
like to add?
    Senator Gillibrand. No, thank you, Mr. Chairman.
    Senator Barrasso. Thank you.
    Senator Inhofe, any members on this side who would like to 
have time?
    Senator Inhofe. No, thank you, Mr. Chairman.
    Senator Barrasso. Senator Sullivan.
    Senator Sullivan. Yes, Mr. Chairman. I just hope that this 
isn't part of the continuing effort of my good friends and 
colleagues on the other side to obstruct, block every single 
Trump administration nominee. I mean, the facts are, and I can 
give them to the press later if they ever want to report on 
this, but the unprecedented slowness with which we are seating 
people in the executive branch, it is unbelievable; it is 
remarkable. And yet it never gets reported on. I mean, the 
election is over. We need to start putting people in positions 
in the executive branch. And slowing, slow rolling, resisting, 
whatever you call it, in a way unprecedented, never been done 
before, had Republicans done this during the first year of the 
Obama administration, the New York Times would have front page 
articles every single day.
    So I certainly hope that we can finally start moving people 
who are qualified, we don't have these week long ``debates'' on 
people who then get 90 Senators to vote for them. It is 
outrageous. We have had railroad accidents recently. The head 
of the Federal Railroad Administration, the FRA, got voted out 
of the Commerce Committee unanimously. Nominated in August, and 
he is still sitting there. Why? Why? It is outrageous.
    And I hope we can finally start confirming people the way 
the American people want us to. Mr. Wheeler, I think, is well 
qualified. Some people might not like his background on certain 
issues. He was staff director on this Committee for a number of 
years.
    And I think with regard to the EPA Administrator, the one 
thing he is doing is promoting the rule of law, again. The last 
Administrator, Gina McCarthy, she ignored the rule of law every 
chance she could. The U.S. Supreme Court put a stay on her 
Clean Power Plan, first time in the history of the U.S. Supreme 
Court that they put a stay on a rule that had not gone to a 
court of appeals. Why? Because they probably almost certainly 
thought it was illegal.
    So I just hope we can start moving forward and getting 
people nominated. And this idea of delaying every single 
nomination, every single one, and my colleagues on the other 
side know they are doing it. Unfortunately, the press won't 
call them out on it. Unprecedented. And it is time we start 
getting people in the executive branch. It doesn't help that we 
delay every single Assistant Secretary, Under Secretary. I just 
hope that this resistance and delay and blockades of well 
qualified people is finally, finally going to end.
    And my colleagues on the other side know, and I have talked 
to a lot of them, a lot of them don't even agree with it. But 
certain elements of their party are requiring that every single 
nomination to the executive branch, regardless of how 
qualified, regardless of the fact that they are going to get a 
95 to 4 vote in the Senate eventually, they get delayed. And I 
certainly hope this isn't part of that delay.
    Thank you, Mr. Chairman.
    Senator Carper. Can I just respond?
    Senator Barrasso. Yes.
    Senator Carper. To our friend and colleague from Alaska----
    Senator Barrasso. Start the clock on the minority side.
    Senator Carper. Let me just say, to my friend from Alaska, 
let me just remind you, unlike Alaska, I live in a State where 
90 percent of our pollution comes from places outside of our 
State. I live in a State--we are the lowest lying State in 
America. We see every day the vestiges of sea level rise. And I 
am sitting here, in order to work with all of you, but also to 
represent the interests of my State and our part of the 
country. We are deeply concerned.
    I think you know me well enough to know I am not one who is 
interested in just blocking nominations for the sake of 
blocking nominations. I think, to the Senator from Alaska, I 
have also spent some time in the military. They have something 
in naval aviation called refusal speed. And it is when you 
bring your airplane out on the taxiway to the end of the runway 
to go through your checklist and prepare to take off. You get 
cleared for takeoff, and the airplane moves down the runway. 
You finally reach a speed where you can either push forward on 
the throttle and take off or you can pull back on the throttle 
and stay on the ground.
    I use that analogy, I think we are at something like 
refusal speed in this Committee. And we have already moved 
forward, and my colleague may not recall, but confirming the 
nominations of Susan Bodine, Matt Leopold, David Ross, I think 
we can make further progress, and I hope today's meeting will 
help lead to that.
    I was pretty specific in mentioning three or four things 
that are especially important to us to be able to move forward 
in a more expeditious manner. And I just hope that you will 
take that in good faith, and let's work together. We spent much 
of last year not working together, really battling each other. 
I think there is a chance to work this year on a more positive 
basis. I think it has already begun, but I think it could be 
continued here today.
    Thank you.
    Senator Sullivan. Mr. Chairman, may I respond must briefly?
    Senator Inhofe. Go ahead.
    Senator Barrasso. Briefly, Senator Sullivan. Then Senator 
Inhofe.
    Senator Sullivan. My colleagues on both sides of the aisle 
know me, I don't normally get frustrated like this. But I think 
my friend from Delaware would acknowledge that on the broader 
issue of moving nominees forward once they get out of committee 
on the floor there has been unprecedented delay and 
obstruction. I am just asking my colleagues on the other side 
of the aisle to cease and start getting these people in their 
positions.
    Thank you.
    Senator Carper. I would just say in response, in the words 
of Harry Truman, the only thing new in the world is the history 
we forgot or never learned. Don't forget that. I think there is 
some blame to go around for both sides.
    Thank you.
    Senator Barrasso. Senator Inhofe, and we now do have a 
quorum, members have arrived, and we have the quorum. If you 
want to?
    Senator Inhofe. No, I can wait.
    Senator Barrasso. No, go ahead.
    Senator Inhofe. Well, it is kind of interesting that the 
person that we are talking about right now is Andrew Wheeler. 
It is not Scott Pruitt. You guys beat him up for 2 and a half 
hours last week, unmercifully, and now you want to continue 
doing that again. I think it is probably because you can't 
really find anything wrong with the individual who is here. Yet 
to answer to your observation, I say to my friend from Alaska 
is, they are disciplined, we are not. Just wait and see how 
this vote turns out. They are all going to vote against him. 
That is the deal they made. Let's go.
    Senator Barrasso. Now the time is expired. I would like to 
move to a vote on the one item on today's agenda.
    The Ranking Member has requested that the nominee for the 
Deputy Administrator of the EPA receive a roll call vote. I 
would now like to call up Presidential Nomination 1426, Andrew 
Wheeler of Virginia, to be Deputy Administrator of the 
Environmental Protection Agency. I move to approve and report 
the nomination favorably to the Senate.
    Is there a second?
    Senator Inhofe. Second.
    Senator Barrasso. The Clerk will call the roll.
    The Clerk. Mr. Booker.
    Senator Booker. No.
    The Clerk. Mr. Boozman.
    Senator Boozman. Yes.
    The Clerk. Mrs. Capito.
    Senator Capito. Yes.
    The Clerk. Mr. Cardin.
    Senator Carper. No by proxy.
    The Clerk. Mr. Carper.
    Senator Carper. No.
    The Clerk. Ms. Duckworth.
    Senator Carper. No by proxy.
    The Clerk. Mrs. Ernst.
    Senator Ernst. Yes.
    The Clerk. Mrs. Fischer.
    Senator Fischer. Yes.
    The Clerk. Mrs. Gillibrand.
    Senator Gillibrand. No.
    The Clerk. Mr. Inhofe.
    Senator Inhofe. Aye.
    The Clerk. Mr. Markey.
    Senator Carper. No by proxy.
    The Clerk. Mr. Merkley.
    Senator Merkley. No.
    The Clerk. Mr. Moran.
    Senator Moran. Aye.
    The Clerk. Mr. Rounds.
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders.
    Senator Carper. No by proxy.
    The Clerk. Mr. Shelby.
    Senator Shelby. Aye.
    The Clerk. Mr. Sullivan.
    Senator Sullivan. Aye.
    The Clerk. Mr. Van Hollen.
    Senator Carper. No by proxy.
    The Clerk. Mr. Whitehouse.
    Senator Carper. No by proxy.
    The Clerk. Mr. Wicker.
    Senator Wicker. Aye.
    The Clerk. Mr. Chairman.
    Senator Barrasso. Aye.
    The Clerk. Mr. Chairman, then ayes are 11, the nays are 10.
    Senator Barrasso. We have approved the nomination of Mr. 
Wheeler to be Deputy Administrator of the Environmental 
Protection Agency, which will be reported to the full Senate 
for approval.
    Senator Inhofe, anything additional you would like to add?
    Senator Inhofe. No, I don't think so.
    I would say, though, that Andrew Wheeler, he worked for me 
for 14 years. You get to know a guy pretty well in 14 years. We 
passed more legislation together under his leadership, leading 
the Committee as well as my personal staff, than we have ever 
done before. He will do a good job, and I am glad that he is 
going to be confirmed.
    Thank you, Mr. Chairman.
    Senator Barrasso. Senator Wicker.
    Senator Wicker. Let me just mention the larger point that 
Senator Sullivan has made. It is well taken, we have a duly 
elected and constituted President of the United States. And he 
is entitled to put his team into place. And we have debated Mr. 
Wheeler today, and the difference of opinion about that. But 
there really can be no difference of opinion that we are 
experiencing an unprecedented delay in getting second and third 
tier appointees confirmed. We are getting dangerously to the 
point, really, where the members of the majority party are 
going to have make a decision about changing the rules. And 
people should just know that. Because this President is 
entitled to his team, and he has not been allowed to put his 
team in place.
    So a word to the wise should be sufficient. We are getting 
to critical mass on the delay, and it has to stop.
    Senator Carper. Mr. Chairman, may I have 30 seconds?
    Senator Barrasso. Yes.
    Senator Carper. In response to my friend, I was privileged 
to serve for 8 years as Governor of Delaware. And for those 8 
years I had the opportunity to nominate hundreds of people to 
serve in different capacities. I had the opportunity to 
nominate them, I didn't have the opportunity to name them, to 
appoint them. A senate was involved. Usually they agreed; 
sometimes they didn't.
    And part of our constitutional responsibility is to advise 
of concerns. Sometimes both sides maybe get carried away with 
that. But we have a path forward here, I think, on this 
nomination. I think maybe before you arrived I talked about 
that. I would be happy to talk with you about it further. But 
there is a path forward. And I hope that we will seize this 
opportunity.
    Thank you.
    Senator Barrasso. Senator Wicker.
    Senator Wicker. Nominees that get confirmed with 90 votes 
are being required to take the full 30 hours. That is the 
problem. And the unprecedented delay is something that this 
majority is going to have to deal with. Just be advised.
    Senator Barrasso. With that, our business meeting is 
concluded and adjourned.
    [Whereupon, at 10:02 a.m., the Committee proceeded to other 
business.]
    [Additional material submitted for the record follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 [all]
</pre></body></html>
